Semiannual Report To
The Congress




October 1, 2008 – March 31, 2009
OIG-CA-09-009




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                          HIGHLIGHTS

•   The Office of Audit issued 40 products. These products included recommendations to put
    approximately $10.5 million in funds to better use and questioned costs of approximately
    $589,000.


•   Work by the Office of Investigations resulted in 1 arrest, 1 case accepted for prosecution,
    and 6 convictions by plea agreement. Investigative activities also resulted in approximately
    $99,000 in court-ordered fines, restitution, and recoveries, as well as 9 personnel or
    administrative actions.

•   We completed the material loss reviews of four financial institution failures: ANB Financial,
    N.A., IndyMac Bank, FSB, First National Bank of Nevada, and First Heritage Bank, N.A.
    These failures, together, resulted in a loss to the federal deposit insurance fund of almost
    $12 billion. Although the number of completed MLRs during the current crisis is small, we
    have seen several trends emerge. With respect to the causes of institutions’ failures, we
    found overly aggressive growth strategies; heavy reliance on more costly wholesale funding,
    such as Federal Home Loan Bank loans and brokered deposits; inadequate risk management;
    and unsound underwriting of loans. In the area of supervision, we found that the Office of
    the Comptroller of the Currency (the regulator for ANB Financial, First National Bank of
    Nevada, and First Heritage Bank) and the Office of Thrift Supervision (the regulator for
    IndyMac Bank) conducted regular and timely examinations and identified operational
    problems, but were slow to take enforcement action to correct the problems. At the end of
    this semiannual reporting period, we have seven ongoing reviews. We expect additional
    national bank and thrift failures in the coming months.


•   In conjunction with the aforementioned audit and a more recently initiated assignment, we
    issued memoranda to Secretary Paulson and Secretary Geithner about the involvement of
    OTS officials in capital contributions by two thrifts that were backdated to prior periods. In a
    December 2008 memorandum to Secretary Paulson, we reported that the OTS West Region
    Director approved IndyMac to backdate a capital contribution which, among other things,
    allowed the thrift to maintain its “well capitalized” status at March 31, 2008. OTS
    subsequently removed the regional director from that position and the individual later retired
    from federal service. In a March 2009 memorandum to Secretary Geithner, we reported that
    a senior OTS official directed that a thrift backdate a capital contribution. The official was
    placed on administrative leave pending a further review. We expect to complete our audit of
    OTS’s involvement in backdated capital contributions by thrifts during the next semiannual
    reporting period.


•   An independent public accountant, working under our supervision, issued an unqualified
    opinion on the Department’s fiscal years 2008 and 2007 consolidated financial statements.
    The audit identified a material weakness related to financial systems and reporting at the
    Internal Revenue Service and two other significant deficiencies related to financial
    management practices at the departmental level and controls over foreign currency
    transactions. The auditor also reported that the Department’s financial management systems
    are not in substantial compliance with the Federal Financial Management Improvement Act
    of 1996. In addition, the audit identified a reportable instance of noncompliance with laws
    and regulations related to section 6325 of the Internal Revenue Code and a potential
    violation of the Anti-deficiency Act.
                  MESSAGE FROM THE INSPECTOR GENERAL


Over the past 6 months, the United States has experienced a financial crisis of a
magnitude not seen in decades. In response, the federal government has taken
unprecedented measures to stabilize the financial markets, including (1) the financial
rescues of Fannie Mae and Freddie Mac, Bear Sterns, and AIG; (2) enactment of the
Emergency Economic Stabilization Act of 2008 (EESA); and (3) enactment of the
American Recovery and Reinvestment Act of 2009 (the Recovery Act). EESA
authorized establishment of the Troubled Asset Relief Program (TARP), which gave
Treasury broad authority to spend up to $700 billion to purchase troubled assets
and take other actions to help stabilize financial markets. The Recovery Act
commits federal spending of almost $800 billion over the next 2 years to help
maintain and create jobs. In March 2009, Secretary Geithner unveiled a new public-
private partnership plan to purchase troubled assets in an effort to repair the
balance sheets of financial institutions and ensure the availability of credit to
households and businesses.

During this period, my office has been looking at how these initiatives are being
carried out at the Department and whether effective controls and accountability are
in place. For example, we provided limited oversight of TARP until the appointment
of the Special Inspector General for TARP (SIGTARP). Specifically, we initiated a
case study review of the process for TARP participation and gathered the data
required for the SIGTARP’s first mandated report. Upon the SIGTARP’s appointment
in December 2008, we worked with his office to transition that work, except for
the case study review, which we are continuing.

In addition, I am one of the ten inspectors general who serve on the Recovery
Accountability and Transparency Board. The Board, established under the Recovery
Act, coordinates and conducts oversight of funds distributed under the act in order
to prevent fraud, waste, and abuse. Toward this end, my staff is working in
conjunction with the Treasury Inspector General for Tax Administration to advise
the Department on setting up proper controls and safeguards for more than
$4 billion dollars in new grant programs for low-income housing and energy
properties.

Finally, over the past year we have been working to keep up with our growing
workload of material loss reviews of failed financial institutions regulated by
Treasury. During this semiannual reporting period, we completed three such
reviews, including our review of the failure of IndyMac Bank. With an estimated loss
to the federal deposit insurance fund of $10.7 billion, IndyMac represents the
largest bank failure of the current economic crisis.

There has never been a more challenging or important time for us in the
accountability community. I look forward to working with Secretary Geithner and
his leadership team, as well as with my fellow inspectors general and the
Government Accountability Office, to ensure the best possible outcome for
American taxpayers.




Eric M. Thorson
This Page Intentionally Left Blank
                                                  TABLE OF CONTENTS

Highlights

A Message From The Inspector General

Overview of the OIG and the Treasury ........................................................................                                 1

         About the Treasury Office of Inspector General ................................................................                      1
         About Treasury ..................................................................................................................    2

Treasury Management and Performance Challenges ................................................                                               5

         Treasury Management and Performance Challenges ......................................................                                5

Significant Audits and Evaluations .............................................................................                              8

         Financial Management ......................................................................................................          8
         Information Technology .....................................................................................................        11
         Programs and Operations .................................................................................................           13

Significant Investigations .............................................................................................                     18

Other OIG Accomplishments and Activity ..................................................................                                    22

Statistical Summary ......................................................................................................                   26

         Summary of OIG Activity ...................................................................................................         26
         Significant Unimplemented Recommendations ................................................................                          27
         Summary of Instances Where Information Was Refused .................................................                                28
         Listing of Audit and Evaluation Reports Issued .................................................................                    28
         Audit Reports Issued With Questioned Costs ...................................................................                      31
         Audit Reports Issued With Recommendations that
            Funds Be Put to Better Use ..........................................................................................            32
         Previously Issued Audit Reports Pending Management Decisions
            (over Six Months) ..........................................................................................................     32
         Significant Revised Management Decisions .....................................................................                      32
         Significant Disagreed Management Decisions ..................................................................                       33
         References to the Inspector General Act .........................................................................                   34

Abbreviations ................................................................................................................               35
This Page Intentionally Left Blank
                            OVERVIEW OF OIG AND TREASURY

About the Treasury Office of Inspector General
The Department of the Treasury’s Office of Inspector General (OIG) was established pursuant
to the 1988 amendment to the Inspector General Act of 1978. 1 OIG is headed by an Inspector
General appointed by the President of the United States with the advice and consent of the
U.S. Senate. Serving with the Inspector General in the immediate office is a Deputy Inspector
General. OIG performs independent, objective reviews of Treasury programs and operations,
except for those of the Internal Revenue Service (IRS), and keeps the Secretary of the
Treasury and Congress fully informed of problems, deficiencies, and the need for corrective
action. The Treasury Inspector General for Tax Administration (TIGTA) performs audit and
investigative oversight related to IRS.

OIG has four divisions: (1) Office of Audit, (2) Office of Investigations, (3) Office of Counsel,
and (4) Office of Management.

          The Office of Audit performs and supervises audits, attestation engagements, and
          evaluations. The Assistant Inspector General for Audit has two deputies. One is
          primarily responsible for performance audits; the other is primarily responsible for
          financial management and information technology audits. Office of Audit staff are
          located in Washington, DC, and Boston, Massachusetts.

          The Office of Investigations performs investigations aimed at detecting and preventing
          fraud, waste, and abuse in Treasury programs and operations. The office also manages
          the Treasury OIG Hotline to facilitate reporting of allegations involving Treasury
          programs and activities. The Assistant Inspector General for Investigations is
          responsible for all investigations relating to the Department’s programs and operations
          and integrity oversight reviews of select Treasury bureaus. The Office of Investigations
          is located in Washington, DC.

          The Office of Counsel (1) processes all Freedom of Information Act/Privacy Act
          requests and administrative appeals on behalf of OIG; (2) processes all discovery
          requests for information held by OIG; (3) represents OIG in administrative Equal
          Employment Opportunity and Merit Systems Protection Board proceedings;
          (4) conducts ethics training and provides ethics advice to OIG employees and ensures
          OIG compliance with financial disclosure requirements; (5) reviews proposed legislation
          and regulations relating to the Department; (6) reviews and issues administrative
          subpoenas; (7) reviews and responds to all Giglio requests for information about
          Treasury personnel who may testify in trials; and (8) provides advice to all OIG
          components on procurement, personnel, and other management matters and on
          pending OIG audits and investigations.

          The Office of Management provides services designed to maintain the OIG
          administrative infrastructure, including asset management; budget formulation and
          execution; financial management; information technology; and officewide policy


1
    5 U.S.C. app. 3.


                   Treasury Office of Inspector General Semiannual Report—March 2009                1
                       OVERVIEW OF OIG AND TREASURY

     preparation, planning, emergency preparedness, and reporting. The Assistant Inspector
     General for Management is in charge of these functions.

     As of March 31, 2009, OIG had 104 full-time staff. OIG’s fiscal year 2009
     appropriation is $26.125 million.


About Treasury
     Treasury’s mission is to serve the American people and strengthen national security by
     managing the U.S. government’s finances effectively; promoting economic growth and
     stability; and ensuring the safety, soundness, and security of U.S. and international
     financial systems. Organized into bureaus and offices, Treasury encompasses a wide
     range of programs and operations. Currently, Treasury has approximately 110,000 full-
     time-equivalent staff. Of those, IRS employs about 94,000; the other Treasury bureaus
     and offices employ about 16,000.

Treasury Bureaus

     The Alcohol and Tobacco Tax and Trade Bureau (TTB) is responsible for enforcing and
     administering laws covering the production, use, and distribution of alcohol and
     tobacco products. It collects alcohol, tobacco, firearms, and ammunition excise taxes
     totaling approximately $17 billion annually.

     The Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency,
     securities, and other official certificates and awards.

     The Bureau of the Public Debt (BPD) borrows the money needed to operate the federal
     government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.

     The Financial Crimes Enforcement Network (FinCEN) supports law enforcement
     investigative efforts and fosters interagency and global cooperation against domestic
     and international financial crimes. It also provides U.S. policy makers with strategic
     analyses of domestic and worldwide trends and patterns.

     The Financial Management Service (FMS) receives and disburses all public monies,
     maintains government accounts, and prepares daily and monthly reports on the status
     of U.S. government finances.

     The Internal Revenue Service (IRS) is the nation's tax collection agency and administers
     the Internal Revenue Code.

     The U.S. Mint designs and manufactures domestic, bullion, and foreign coins, as well
     as commemorative medals and other numismatic items. The Mint also distributes U.S.
     coins to the Federal Reserve Banks and maintains physical custody of and protects the
     nation's gold and silver assets.



             Treasury Office of Inspector General Semiannual Report—March 2009                2
                        OVERVIEW OF OIG AND TREASURY


      The Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      The Office of Thrift Supervision (OTS) regulates all federal and many state-chartered
      thrift institutions, which include savings banks and savings and loan associations.

Treasury Offices

      The Departmental Offices (DO) formulates policy and manages Treasury operations.
      Descriptions of certain component offices relevant to this semiannual reporting period
      appear below.

      The Office of Financial Stability was established as a result of the Emergency
      Economic Stabilization Act of 2008. Under this legislation Congress authorized the
      Treasury Secretary to take such actions as necessary to build the operational and
      administrative infrastructure to support Troubled Asset Relief Program activities.
      Treasury has the authority to establish program vehicles, issue regulations, directly hire
      or appoint employees, enter into contracts, and designate financial institutions as
      financial agents of the federal government.

      The Office of Terrorism and Financial Intelligence (TFI) uses Treasury’s intelligence and
      enforcement functions to safeguard the financial system against illicit use and to
      combat rogue nations, terrorist facilitators, money launderers, drug kingpins, and other
      national security threats. This office is also responsible for integrating FinCEN, the
      Office of Foreign Assets Control (OFAC), and the Treasury Executive Office for Asset
      Forfeiture.

         •   OFAC administers and enforces economic and trade sanctions based on U.S.
             foreign policy and national security goals against targeted foreign countries,
             terrorists, international narcotics traffickers, and those engaged in activities
             related to the proliferation of weapons of mass destruction.

         •   The Treasury Executive Office for Asset Forfeiture administers the Treasury
             Forfeiture Fund, the receipt account for the deposit of nontax forfeitures made
             by IRS Criminal Investigation and the Department of Homeland Security.

      The office is headed by an Under Secretary and includes two major components: the
      Office of Terrorist Financing and Financial Crimes and the Office of Intelligence and
      Analysis. An Assistant Secretary oversees each of these offices.

         •   The Office of Terrorist Financing and Financial Crimes works across all elements
             of the national security community—including the law enforcement, regulatory,
             policy, diplomatic and intelligence communities—and with the private sector and
             foreign governments to identify and address the threats presented by all forms
             of illicit finance to the international financial system.


              Treasury Office of Inspector General Semiannual Report—March 2009                 3
                  OVERVIEW OF OIG AND TREASURY


   •   The Office of Intelligence and Analysis is responsible for the receipt, analysis,
       collation, and dissemination of foreign intelligence and foreign
       counterintelligence information related to the operation and responsibilities of
       Treasury.

The Office of Management is responsible for Treasury’s internal management and
policy in the areas of budget, planning, human resources, information and technology
management, financial management and accounting, procurement, and administrative
services to DO. It is headed by the Assistant Secretary for Management and Chief
Financial Officer. The Office of DC Pensions, which is within the Office of
Management, makes federal benefit payments associated with District of Columbia
retirement programs for police officers, firefighters, teachers, and judges.

The Office of International Affairs advises on and assists in formulating and executing
U.S. international economic and financial policy. Its responsibilities include developing
policies and guidance in the areas of international financial, economic, monetary, trade,
investment, bilateral aid, environment, debt, development, and energy programs,
including U.S. participation in international financial institutions.

The Office of Tax Policy develops and implements tax policies and programs, reviews
regulations and rulings to administer the Internal Revenue Code, negotiates tax treaties,
and provides economic and legal policy analysis for domestic and international tax
policy decisions. It also provides estimates for the President's budget, fiscal policy
decisions, and cash management decisions.

The Exchange Stabilization Fund is used to purchase or sell foreign currencies, hold
U.S. foreign exchange and Special Drawing Rights assets, and provide financing to
foreign governments.

The Community Development Financial Institutions Fund expands the availability of
credit, investment capital, and financial services in distressed urban and rural
communities.

The Federal Financing Bank provides federal and federally assisted borrowing, primarily
to finance direct agency activities such as construction of federal buildings by the
General Services Administration and meeting the financing requirements of the U.S.
Postal Service.

                         (End of Overview of OIG and Treasury)




        Treasury Office of Inspector General Semiannual Report—March 2009                  4
      TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

In accordance with the Reports Consolidation Act of 2000, the Inspector General annually
provides the Secretary of the Treasury with his perspective on the most serious
management and performance challenges facing the Department. The Secretary includes
these challenges in the Department’s annual performance and accountability report.

In a memorandum to Secretary Paulson dated October 30, 2008, Inspector General
Thorson reported six challenges, which are summarized below.

   Management of Treasury’s New Authorities Related to Distressed Financial Markets
   (New Challenge)

   Treasury, along with the Federal Reserve and the Federal Housing Finance Agency, has
   been dealing with multiple financial crises requiring unprecedented actions through the
   latter half of fiscal year 2008. In July 2008, Congress passed the Housing and
   Economic Recovery Act, which gave Treasury broad new authorities to address the
   distressed financial condition of Fannie Mae and Freddie Mac. The hope at the time
   was that Treasury would not need to exercise those authorities. Less than 6 weeks
   later, however, the Federal Housing Finance Agency put Fannie Mae and Freddie Mac
   into conservatorship and Treasury agreed to purchase senior preferred stock in the
   companies, established a new secured line of credit available to the companies, and
   initiated a temporary program to purchase new mortgage-backed securities issued by
   the companies.

   As the turmoil in the financial markets increased, Treasury and the Federal Reserve
   took a number of additional unprecedented actions, including the rescue of Bear
   Stearns and American International Group. Eventually this led to a more systemic,
   comprehensive plan to stabilize the financial markets -- the Emergency Economic
   Stabilization Act (EESA), which gave the Treasury Secretary $700 billion in authority
   to, among other things, (1) purchase capital in qualifying U.S.-controlled financial
   institutions and (2) buy, maintain, and sell toxic mortgage-related assets from financial
   institutions.

   Going forward, sound administration of the significant taxpayer dollars committed to
   this rescue effort will be Treasury’s most significant management challenge.
   Furthermore, given the rapidly changing conditions in the financial markets and the
   coming change in administrations, the importance of establishing a sustainable
   leadership team as quickly as possible to manage this program cannot be overstated.

   Regulation of National Banks and Thrifts (New Challenge)

   Since September 2007, and as of March 31, 2009, 17 Treasury-regulated financial
   institutions have failed, with estimated losses to the deposit insurance fund exceeding
   $13 billion. Many more are expected to fail before the economy improves.

   Although many factors contributed to the current turmoil in the financial markets,
   Treasury’s two financial institution regulators, OCC and OTS, did not identify early or
   force timely correction of the unsafe and unsound practices by institutions they



               Treasury Office of Inspector General Semiannual Report—March 2009               5
   TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

supervised. The irresponsible lending practices of many institutions, which contributed
to the crisis, are now well-recognized, including degradation of underwriting standards
and loan decisions based on factors other than the borrowers’ ability to repay. At the
same time, financial institutions engaged in other high-risk activities, including high
asset concentrations in areas such as commercial real estate and overreliance on
unpredictable brokered deposits to fund rapid growth. The banking industry will
continue to be under pressure over the next several years.

Recognizing that the focus of EESA is the current crisis, another consideration is the
need for Treasury to identify, monitor, and manage emerging domestic and global
systemic economic risks. These emerging risks may go beyond the current U.S.
regulatory structure. Treasury, in concert with its regulatory partners, needs to
diligently monitor both regulated and unregulated products and markets for new
systemic risks that may require action.

Corporate Management (Repeat Challenge)

As an overarching management challenge, Treasury needs to provide effective
corporate leadership in order to improve performance as a whole. With nine bureaus
and a number of program offices, Treasury is a highly decentralized organization. The
Department has made progress in building up a sustainable corporate control structure.
The challenge continues to be maintaining emphasis on corporate governance,
particularly as the Department develops the infrastructure to carry out its vastly
expanded role in addressing the current economic crisis.

Management of Capital Investments (Repeat Challenge)

Managing large capital investments, particularly information technology (IT)
investments, is a difficult challenge facing any organization, public or private. In prior
years we have reported on a number of capital investment projects that either failed or
had serious problems. In light of this, with hundreds of millions of procurement dollars
at risk, Treasury needs to exercise continuous vigilance in this area as it proceeds with
its (1) transition to a new telecommunications contract, TNet, a transition that has
already experienced delays; (2) implementation of enhanced information security
requirements; (3) anticipated renovation of the Treasury Annex; and (4) other large
capital investments. The Department reinstituted a governance board consisting of
senior management officials to provide executive decision-making on, and oversight of,
IT investment planning and management, and to ensure compliance with the related
statutory and regulatory requirements.

Information Security (Repeat Challenge)

While improvements have been made, by its very nature, information security will
continue to be a management challenge to the Department. Our fiscal year 2008 audit
addressing the objectives of the Federal Information Security Management Act of 2002
(FISMA) and Office of Management and Budget (OMB) requirements found that




            Treasury Office of Inspector General Semiannual Report—March 2009                6
       TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

   Treasury’s non-IRS bureaus made progress in improving information security controls
   and practices.

   During the past year Treasury strengthened its inventory reporting and Plan of Action
   and Milestones processes for tracking and correcting security weaknesses. However,
   our audit found that (1) minimum security control baselines were not sufficiently
   documented, tested, and/or implemented as required; (2) computer security incidents
   were not consistently reported timely or correctly categorized; (3) common security
   configuration baselines were not fully compliant; and (4) federal desktop core
   configurations were not fully implemented. Treasury management has indicated its
   commitment to address these issues.

   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement (Repeat
   Challenge)

   Treasury faces unique challenges in carrying out its responsibilities under the Bank
   Secrecy Act (BSA) and USA PATRIOT Act to prevent and detect money laundering and
   terrorist financing. While FinCEN is the Treasury bureau responsible for administering
   BSA, a large number of federal and state entities participate in efforts to ensure
   financial institutions’ compliance with BSA. These entities include the five federal
   banking regulators, the IRS, the Securities and Exchange Commission, the Department
   of Justice, and state regulators. Many of these entities also participate in efforts to
   ensure compliance with U.S. foreign sanction programs administered by OFAC.

   The dynamics and challenges for Treasury of coordinating the efforts of multiple
   entities, many external to Treasury, are difficult. In this regard, FinCEN and OFAC
   entered into memoranda of understanding (MOU) with many federal and state
   regulators in an attempt to build a consistent and effective process. However, these
   MOUs are nonbinding (and without penalty), and their overall effectiveness has not
   been independently assessed.

   Furthermore, the PATRIOT Act has increased the types of financial institutions required
   to file BSA reports. Although these reports are critical to law enforcement, past audits
   have shown that many contain incomplete or erroneous data. Past audits have also
   shown only limited examination coverage by regulators of financial institutions’
   compliance with BSA.

For 2008, we removed one previously reported challenge, Linking Resources to Results,
based on the progress the Department has made in implementing managerial cost
accounting in its operations. As we have pointed out in the past, management and
performance challenges do not always represent a deficiency in management or
performance. Instead, they can represent inherent risks associated with Treasury’s
mission, organizational structure, or the environment in which it operates. In this regard,
the Department can and should take steps to mitigate these challenges but may not be
able to entirely eliminate them. As such, they require ongoing management attention.

                  (End of Treasury Management and Performance Challenges)



                Treasury Office of Inspector General Semiannual Report—March 2009             7
               S IGNIFICANT A UDITS AND E VALUATIONS

Financial Management

Financial Audits

Consolidated Financial Statements

An independent public accountant (IPA), working under our supervision, issued an
unqualified opinion on the Department’s fiscal years 2008 and 2007 consolidated financial
statements. The audit identified three significant deficiencies related to (1) financial
systems and reporting at IRS, (2) financial management practices at the departmental level,
and (3) controls over foreign currency transactions. The significant deficiency related to
financial systems and reporting at IRS is considered a material weakness. The IPA also
reported that the Department’s financial management systems are not in substantial
compliance with the Federal Financial Management Improvement Act of 1996. In addition,
the audit identified a reportable instance of noncompliance with laws and regulations
related to section 6325 of the Internal Revenue Code and a potential violation of the Anti-
deficiency Act. Treasury management concurred with the report findings. (OIG-09-006)

In connection with its audit of Treasury’s consolidated financial statements, the IPA issued
a management letter that identified other areas in which improvements could benefit the
quality and efficiency of Treasury’s financial reporting: (1) the process for preparing the
President’s Budget Reconciliation; (2) the consistency of financial reporting standards for
the Department’s component entities; (3) the mortgage-backed securities purchase
reconciliation process; (4) establishment of disaster recovery plans for the Treasury
Information Executive Repository (TIER) and the Chief Financial Officer Vision financial
systems; and (5) configuration of the TIER Oracle database to log database-level access
and actions. Treasury management concurred with the report findings. (OIG-09-028)

Other Financial Audits

The Chief Financial Officers Act of 1990 (CFO Act), as amended by the Government
Management Reform Act of 1994 (GMRA), requires annual financial statement audits of
Treasury and OMB-designated entities. In this regard, OMB has designated IRS for annual
financial statement audits. The financial statements of certain other Treasury component
entities are audited pursuant to other requirements or due to their materiality to Treasury’s
consolidated financial statements. The following table shows audit results for fiscal years
2008 and 2007.




                Treasury Office of Inspector General Semiannual Report—March 2009               8
                        S IGNIFICANT A UDITS AND E VALUATIONS


Treasury-audited financial statements and related audits
                                               Fiscal year 2008 audit results                Fiscal year 2007 audit results
                                                                        Other                                        Other
                                                         Material       significant                   Material       significant
Entity                             Opinion               weakness       deficiencies     Opinion      weakness       deficiencies
GMRA/CFO Act requirements
  Department of the Treasury             UQ             1                            2         UQ               1                2
  Internal Revenue Service (A)           UQ             3                            1         UQ               4                1
Other required audits
  Bureau of Engraving and
                                         UQ             0                            0         UQ               0                0
  Printing
  Community Development
                                         UQ             0                            2           D              0                2
  Financial Institutions Fund (B)
  Office of DC Pensions                  UQ             0                            0         UQ               0                0
  Exchange Stabilization Fund            UQ             1                            1         UQ               0                0
  Federal Financing Bank                 UQ             0                            0         UQ               0                0
  Office of the Comptroller of
                                         UQ             0                            0         UQ               0                1
  the Currency
  Office of Thrift Supervision           UQ             0                            0         UQ               0                0
  Treasury Forfeiture Fund               UQ             0                            0         UQ               0                2
  Mint
     Financial statements                UQ             0                            2         UQ               1                0
     Custodial gold and silver
                                         UQ             0                            0         UQ               0                0
     reserves
Audited accounts that are material to Treasury financial statements
  Bureau of the Public Debt
     Schedule of Federal Debt
                                         UQ             0                            0         UQ               0                0
     (A)
     Government trust funds              UQ             0                            1         UQ               0                0
  Financial Management Service
     Treasury-managed accounts           UQ             0                            1         UQ               0                0
     Operating cash of the
                                         UQ             0                            0         UQ               0                1
     federal government
Management-initiated audit
  FinCEN                                 UQ             0                            0         UQ               1                0
UQ    -   Unqualified opinion
D     -   Disclaimer of opinion
(A)   -   Audited by Government Accountability Office (GAO)
(B)   -   Audit of the Statement of Financial Position only for fiscal year 2008, full-scope audit of all financial statements
          for fiscal year 2007


The fiscal year 2008 IPA audits of Treasury’s component entities and its special-purpose
financial statements, performed under our supervision, identified the following material
weakness and other significant deficiencies:

Material Weaknesses

      •     The Exchange Stabilization Fund’s (ESF) controls over foreign currency investment
            transactions (OIG-09-034)



                        Treasury Office of Inspector General Semiannual Report—March 2009                                            9
                  S IGNIFICANT A UDITS AND E VALUATIONS


Other Significant Deficiencies

   •   ESF’s controls over the Temporary Money Market Insurance Program (OIG-09-034)
   •   The Financial Management Service’s controls over estimating the Receivable on
       Deposit of Earnings, Federal Reserve (OIG-09-012)
   •   The Mint’s (1) controls over inventory tracking and (2) review of open obligations
   •    (OIG-09-015)
   •   The Community Development Financial Institutions Fund’s (1) management
       communication and (2) controls over awards monitoring (OIG-09-007)
   •   The Department’s controls over the preparation of Treasury’s special-purpose
       financial statements (OIG-09-009)

We also issued management letters that identified other matters that were not required to
be included in the reports on the fiscal year 2008: (1) financial statements of the
Community Development Financial Institutions Fund (OIG-09-008), ESF (OIG-09-035), the
Federal Financing Bank (OIG-09-011), the Mint (OIG-09-016), the Treasury Forfeiture Fund
(OIG-09-022), OCC (OIG-09-027), and OTS (OIG-09-020) and (2) the FMS Schedule of
Non-Entity Government-wide Cash (OIG-09-017) and the FMS Schedule of Non-Entity
Assets, Non-Entity Costs and Custodial Revenue (OIG-09-018).

Federal Financial Management Improvement Act of 1996

The following instances of noncompliance with the Federal Financial Management
Improvement Act of 1996, which all relate to IRS, were reported in connection with the
audit of the Department’s fiscal year 2008 consolidated financial statements:

                                                                                       Type of
    Condition
                                                                                       noncompliance

    Financial management systems do not provide timely and reliable information        Federal financial
    for financial reporting and preparation of financial statements. IRS had to rely   management
    on extensive compensating procedures to generate reliable financial                systems
    statements. (first reported in fiscal year 1997.                                   requirements
    Deficiencies were identified in information security controls, resulting in        Federal financial
    increased risk of unauthorized individuals accessing, altering, or abusing         management
    proprietary IRS programs and electronic data and taxpayer information. (first      systems
    reported in fiscal year 1997)                                                      requirements
    Material weakness related to controls over unpaid tax assessments exists.          Federal accounting
    (first reported in 1997)                                                           standards
    Financial management system cannot produce reliable, current information on
    the costs of IRS activities to support decision making on a routine basis,
                                                                                       Federal accounting
    consistent with the requirements of Statement of Federal Financial Accounting
                                                                                       standards
    Standards No. 4, Managerial Cost Accounting Standards. (first reported in
    1998)
    IRS’s core general ledger system for tax-related activities does not comply
                                                                                       U.S. Government
    with the U.S. Government Standard General Ledger (SGL) at the transaction
                                                                                       Standard General
    level and also does not post transactions in conformance with SGL posting
                                                                                       Ledger
    models. (first reported in 1997)



                  Treasury Office of Inspector General Semiannual Report—March 2009                         10
               S IGNIFICANT A UDITS AND E VALUATIONS

The current status of these noncompliances, including progress in implementing
remediation plans, will be evaluated as part of the audit of Treasury’s fiscal year 2009
financial statements.

Attestation Engagements

An IPA, working under our supervision, examined the general computer and trust fund
management processing controls related to BPD’s transaction processing of investment
accounts of various federal and state government agencies. BPD’s Trust Fund Management
Branch maintained these accounts. The IPA found that BPD’s description of these controls
fairly presented, in all material respects, the controls that had been placed in operation as
of July 31, 2008. The IPA also found that, except for a deficiency in the design and
operation of one control objective related to receipts and investments, (1) the controls
were suitably designed and (2) the controls tested were effective during the period August
1, 2007 to July 31, 2008. The IPA noted no instances of reportable noncompliance with
laws and regulations tested. (OIG-09-001)

An IPA, working under our supervision, issued an unqualified opinion that the BPD Trust
Fund Management Branch’s assertions pertaining to the Schedule of Assets and Liabilities
and related Schedule of Activity of Selected Trust Funds, as of and for the year ended
September 30, 2008, are fairly stated. These schedules relate to the functions performed
by the Trust Fund Management Branch as custodian of the Federal Supplementary Medical
Insurance Trust Fund, Federal Hospital Insurance Trust Fund, Highway Trust Fund, Airport
and Airway Trust Fund, Hazardous Substance Superfund Trust Fund, Leaking Underground
Storage Tank Trust Fund, Oil Spill Liability Trust Fund, Harbor Maintenance Trust Fund,
Inland Waterways Trust Fund, and South Dakota Terrestrial Wildlife Habitat Restoration
Trust Fund. The attestation examination identified a significant deficiency in internal
control related to recording tax adjustments that is not considered a material weakness. No
instances of reportable noncompliance with laws and regulations were identified.
(OIG-09-004)




Information Technology

Treasury Was Not Fully Compliant With Privacy Requirements

Section 522 of the Transportation, Treasury, Independent Agencies, and General
Government Appropriations Act, 2005, Public Law 108-447, as amended, requires
Treasury to (1) appoint a chief privacy officer to assume primary responsibility for privacy
and data protection policy, (2) establish privacy and data protection procedures and
policies, (3) prepare a written report of the use of information in an identifiable form and
privacy and data protection procedures to be recorded with OIG to serve as a benchmark
for the agency, and (4) perform an independent third party review of the use of information
in an identifiable form. Additionally, section 522 requires our office to perform a periodic
assessment of the implementation of this section. We contracted with an IPA to audit the


               Treasury Office of Inspector General Semiannual Report—March 2009                11
                 S IGNIFICANT A UDITS AND E VALUATIONS

Department’s compliance (excluding IRS) with section 522 as well as Office of
Management and Budget Memorandum 07-16 (M-07-016), Safeguarding Against and
Responding to the Breach of Personally Identifiable Information.

The IPA found that Treasury did not fully comply with section 522 and with M-07-016.
Specifically, Treasury (1) did not report annually to Congress on Treasury activities that
affect privacy; (2) did not record with OIG a written report on Treasury’s use of
information in identifiable form and its privacy and data protection policies and procedures;
and (3) had not finalized two draft Treasury directives and policies related to collection,
use, sharing, disclosure, transfer, and storage of personally identifiable information.
(OIG-09-014)

Network Security at the Alcohol and Tobacco Tax and Trade Bureau Could Be
Improved (OIG-CA-09-005)
We reported high-severity security We completed an evaluation of network security at TTB
vulnerabilities on some TTB        to determine whether sufficient protections exist to
systems resulting from ineffective prevent intrusions. An unauthorized attack or system
security configurations, such as   intrusion on TTB’s network could be detrimental to its
unnecessary or insecure services   mission and undermine public faith in TTB’s ability to
running on systems.                safeguard the tax information it collects. We reported
                                   high-severity security vulnerabilities on some TTB
systems resulting from ineffective security configurations, such as unnecessary or insecure
services running on systems. In addition, we found the use of default passwords, granting
of excessive database privileges, failure of some systems to display required warning
banners, missing patches, and unsupported or obsolete software versions. Furthermore,
several systems did not have the required Federal Desktop Core Configuration (FDCC)
settings. TTB could also improve user awareness of workstation security and network
shared-drive access. TTB concurred with our recommendations and has implemented or
planned corrective actions that are responsive to our recommendations. (OIG-CA-09-005)

Treasury’s Federal Desktop Core Configuration Deviation Tracking Process Is
Inadequate
We determined that Treasury’s FDCC deviation              While the Office of the Chief
tracking policies and procedures need improvement.        Information Officer tracks the
Specifically, while the Office of the Chief Information   number of deviations reported by
Officer tracks the number of deviations reported by       the bureaus on a monthly basis, it
the bureaus on a monthly basis, it does not track or      does not track or evaluate the
evaluate the details associated with each deviation.      details associated with each
For instance, the Office of the Chief Information         deviation.
Officer does not keep track of the name of the FDCC
setting that will not be implemented, description of the FDCC setting, bureau justification
for not implementing the FDCC setting, and estimated remediation date for each deviation.
In addition, we found that the Treasury Chief Information Officer’s policies provide
inconsistent instructions on tracking security weaknesses. The Treasury Chief Information




                  Treasury Office of Inspector General Semiannual Report—March 2009             12
                 S IGNIFICANT A UDITS AND E VALUATIONS

Officer concurred with our findings and recommendations and provided plans for corrective
actions. (OIG-CA-09-007)



Programs and Operations

Bank Failures and Material Loss Reviews

Treasury’s Office of the Comptroller of the Currency (OCC) and Office of Thrift Supervision
(OTS) share responsibility with the Federal Deposit Insurance Corporation (FDIC) and the
Federal Reserve for regulating and supervising banks and thrifts in the United States. OCC
regulates national chartered banks and OTS regulates thrifts, while FDIC and the Federal
Reserve share regulation of state-chartered banks and thrifts. State regulatory authorities
may also share responsibility for regulating and supervising banks and thrifts.

In 1991, Congress enacted the Federal Deposit Insurance Corporation Improvement Act
(FDICIA) amending the Federal Deposit Insurance Act (FDIA) following the failures of about
1,000 banks and thrifts between 1986 and 1990 that resulted in billions of dollars in
losses to the deposit insurance fund. The amendments require that banking regulators take
specified supervisory actions when they identify unsafe or unsound practices or conditions.

Section 38 (k) of FDICIA requires that the inspectors general of Treasury, FDIC, and the
Federal Reserve review the failures of depository institutions when the estimated loss to
the deposit insurance fund becomes material (defined as a loss that exceeds the greater of
$25 million or 2 percent of the institution’s total assets). The inspector general for the
appropriate federal banking agency is to prepare a report on the review, known as a
material loss review (MLR), to the agency. The report is to (1) ascertain why the
institution’s problems resulted in a material loss to the insurance fund, (2) review the
agency’s supervision of the institution, including the implementation of the Prompt
Corrective Action (PCA) provisions 2 in FDICIA, and (3) make recommendations for
preventing any such loss in the future. The MLR must be completed within 6 months of
the date when it becomes apparent that the loss meets the law’s definition of “material.”

Since 2007, FDIC and other regulators have closed 49 banks and thrifts. Seventeen of
these institutions were regulated by Treasury. During the current financial crisis, the first
Treasury-regulated institution to require an MLR was NetBank, which was closed by OTS
in September 2007. We reported on this MLR in our September 2008 semi-annual report to
Congress. During the current semi-annual reporting period, we are reporting on four
MLRs—ANB Financial, N.A.; IndyMac Bank, FSB; First National Bank of Nevada, and First
Heritage Bank, N.A. IndyMac Bank was regulated by OTS; the other three were regulated

2
  PCA is a framework of supervisory actions, set forth in 12 U.S.C. § 1831, for insured depository
institutions that are not adequately capitalized. It was intended to ensure that action is taken when
an institution becomes financially troubled in order to prevent a failure or minimize resulting losses.
These actions become increasingly severe as the institution falls into lower capital categories. The
capital categories are well-capitalized, adequately capitalized, undercapitalized, significantly
undercapitalized, and critically undercapitalized.


                 Treasury Office of Inspector General Semiannual Report—March 2009                        13
                S IGNIFICANT A UDITS AND E VALUATIONS

by OCC. As of March 31, 2009, we have seven ongoing MLRs, and we expect additional
bank and thrift failures in the coming months.

Although we have completed only five MLRs during the current crisis, we have seen
several trends emerge. With respect to the causes of institutions’ failures, we found overly
aggressive growth strategies; heavy reliance on more costly wholesale funding, such as
Federal Home Loan Bank loans and brokered deposits; inadequate risk management; and
unsound underwriting of loans. With respect to supervision, we found that regulators often
conducted regular and timely examinations and identified operational problems, but were
slow to take enforcement action to correct the problems. The following summaries
describe in more detail our findings for the four MLRs we completed during this reporting
period.

ANB Financial. OCC closed ANB Financial, of Bentonville, Arkansas, on May 9, 2008, with
an estimated loss to the deposit insurance fund of $214 million. The primary causes of
ANB’s failure were the bank’s strategy of aggressive growth without adequate controls;
heavy reliance on wholesale funding, including brokered deposits; inadequate risk
management of credit concentrations in commercial real estate; and unsound underwriting
practices.

                                 We found that OCC conducted timely and regular
OCC identified most of ANB’s
                                 examinations of ANB and provided oversight through off-
problems in 2005, but took no
                                 site monitoring, appropriately used its PCA authority, and
forceful action until 2007.
                                 that OCC’s Special Supervision Division took appropriate
supervisory actions after assuming oversight of ANB. However, we believe that OCC did
not issue a formal enforcement action in a timely manner and that its supervision of ANB
was not sufficiently aggressive in light of the bank’s rapid growth, high concentrations in
commercial real estate loans, reliance on brokered deposits, and weak credit risk
management practices. OCC identified most of ANB’s problems in 2005, but took no
forceful action until 2007.

We recommended that OCC (1) re-emphasize to examiners that they must closely
investigate an institution’s circumstances and alter supervisory plans if certain
circumstances exist, as specified in OCC guidance; (2) re-emphasize to examiners that
formal enforcement action is presumed warranted when certain circumstances exist and
the need to document their reason for not taking formal enforcement action if such
circumstances exist; (3) reassess guidance and examination procedures in the comptroller’s
handbook related to bank use of wholesale funding, with a focus on heavy reliance on
brokered deposits and other nonretail deposit funding sources for growth; and (4) establish
in policy a “lessons-learned” process to assess the causes of bank failures and the
supervision exercised over failed institutions and to take appropriate action to address any
significant weaknesses or concerns identified.

In its response, OCC agreed that execution of its supervisory process regarding ANB had
shortcomings and that it was appropriate to take additional measures to reinforce this
process to OCC examining staff. The steps taken and planned by OCC are generally
responsive to our recommendations, although we believe that additional action is needed



                Treasury Office of Inspector General Semiannual Report—March 2009              14
                    S IGNIFICANT A UDITS AND E VALUATIONS

to institutionalize the lessons-learned process. OCC also needs to identify estimated dates
for completing planned corrective actions. (OIG-09-013)

                                          IndyMac Bank. OTS closed IndyMac Bank, of Pasadena,
    IndyMac often made loans without      California, on July 11, 2008, with an estimated loss to
    verification of the borrower’s        the deposit insurance fund of $10.7 billion. IndyMac’s
    income or assets, and to borrowers    failure was largely associated with its business strategy
    with poor credit histories.           of originating and securitizing Alt-A loans on a large
    Appraisals obtained by IndyMac        scale. This strategy resulted in rapid growth and a high
    on underlying collateral were often   concentration of risky assets.
    questionable as well.
                                      IndyMac’s aggressive growth strategy, use of Alt-A and
other nontraditional loan products, insufficient underwriting, credit concentrations in
residential real estate in the California and Florida markets, and heavy reliance on costly
funds borrowed from the Federal Home Loan Bank and from brokered deposits, led to its
demise when the mortgage market declined in 2007. IndyMac often made loans without
verification of the borrower’s income or assets, and to borrowers with poor credit
histories. Appraisals obtained by IndyMac on underlying collateral were often questionable
as well. As an Alt-A lender, IndyMac’s business model was to offer loan products to fit the
borrower’s needs, using an extensive array of risky option-adjustable-rate-mortgages,
subprime loans, 80/20 loans, and other nontraditional products. Ultimately, loans were
made to many borrowers who simply could not afford to make their payments. When
home prices declined in the latter half of 2007 and the secondary mortgage market
collapsed, IndyMac was forced to hold $10.7 billion of loans it could not sell in the
secondary market. Its reduced liquidity was further exacerbated in late June 2008 when
account holders withdrew $1.55 billion in deposits. This “run” on the thrift followed the
public release of a letter from Senator Charles Schumer to the FDIC and OTS. The letter
outlined the Senator’s concerns with IndyMac. While the run was a contributing factor in
the timing of IndyMac’s demise, the underlying cause of the failure was the unsafe and
unsound manner in which the thrift was operated.

Although OTS conducted timely and regular examinations of IndyMac and provided
oversight through off-site monitoring, its supervision of the thrift failed to prevent a
material loss to the Deposit Insurance Fund. The thrift’s high-risk business strategy
warranted more careful and much earlier attention. That said, OTS did identify numerous
problems and risks, including the quantity and poor quality of nontraditional mortgage
products, but did not take aggressive action to stop those practices from continuing to
proliferate. OTS relied on the cooperation of IndyMac management to obtain needed
improvements. However, IndyMac had a long history of not sufficiently addressing OTS
examiner findings. From 2001 to 2007, OTS’s composite CAMELS ratings of IndyMac
consistently remained at 2. 3 It was not until 2008 that OTS dropped the composite


3
  The CAMELS rating system provides a general framework for assimilating and evaluating all
significant financial, operational, and compliance factors inherent in a bank or thrift. It enables
banking regulators to assign to each banking organization individual CAMELS component ratings and
an overall performance rating that indicates the institution’s overall condition. CAMELS is an
acronym for the performance rating components: Capital adequacy, Asset Quality, Management


                    Treasury Office of Inspector General Semiannual Report—March 2009                 15
                 S IGNIFICANT A UDITS AND E VALUATIONS

CAMELS rating to a 3 and then to a 5 for the institution. OTS did not issue any
enforcement action, either informal or formal, until June 2008. In short, earlier
enforcement action was warranted.

As stated in our report, we believe that it is essential that OTS senior leadership reflect
carefully on the supervision that was exercised over IndyMac and ensure that the correct
lessons are taken away from this failure. We recommended that OTS (1) ensure that action
is taken on the lessons learned and recommendations from the OTS internal review of the
IndyMac failure and (2) caution examiners that assigning composite CAMELS ratings of 1
or 2 to thrifts with high-risk, aggressive growth business strategies need to be supported
with compelling, verified mitigating factors (such as thrift corporate governance, and risk
management and underwriting controls) that are likely to be sustainable. OTS management
agreed with our overall findings and recommendations and outlined a number of corrective
actions. Among the actions planned by OTS is establishing a large savings association unit
in Washington, DC, that will be responsible for reviewing and concurring with regional
office actions for savings associations with total assets above $10 billion. We noted that
while the planned actions were significant, it will take time to assess their effectiveness
and continuous senior management attention will be crucial to their success. (OIG-09-032)

First National Bank of Nevada and First Heritage Bank, N.A. OCC closed affiliated banks
First National Bank of Nevada (FNB Nevada) of Reno, Nevada, and First Heritage Bank,
N.A. (First Heritage Bank) of Newport Beach, California, on July 25, 2008. The estimated
loss to the deposit insurance fund was $706 million for FNB Nevada and $33 million for
First Heritage Bank. The primary cause of FNB Nevada’s failure was significant losses in its
commercial real estate portfolio and losses from the residential mortgage operations of the
previously independent FNB Arizona, which merged with FNB Nevada on June 30, 2008.
These losses resulted from inadequate management controls over credit underwriting and
administrative practices and from inadequate risk management. The control deficiencies
were exacerbated by unfavorable economic conditions. The primary cause of the failure of
First Heritage Bank was FNB Nevada’s inability to repay, at the time OCC closed the
banks, a $74.4 million loan from First Heritage Bank. The resulting loss depleted First
Heritage Bank’s capital.

OCC conducted timely and regular examinations of FNB              The primary cause of the failure of
Nevada, the former FNB Arizona prior to its merger                First Heritage Bank was FNB
with FNB Nevada, and First Heritage Bank, and                     Nevada’s inability to repay … a
                                                                  $74.4 million loan from First
provided oversight through off-site monitoring. The
                                                                  Heritage Bank…. The primary
scope of the examinations appeared comprehensive,
                                                                  cause of FNB Nevada’s failure was
although workpaper evidence supporting the
                                                                  significant losses in its commercial
examination procedures performed was limited. OCC
                                                                  real estate portfolio and losses from
also appropriately used its PCA authority. However,
                                                                  the residential mortgage operations
OCC did not issue timely formal enforcement action for
                                                                  of the previously independent FNB
any of the banks and was not sufficiently aggressive in
                                                                  Arizona….
its supervision of the banks in light of their weak


administration, Earnings, Liquidity, and Sensitivity to market risk. Numerical values range from 1 to
5, with 1 being the highest rating and 5 the lowest.


                 Treasury Office of Inspector General Semiannual Report—March 2009                        16
                 S IGNIFICANT A UDITS AND E VALUATIONS

management practices. OCC identified problems at FNB Nevada and the former FNB
Arizona as early as 2002. OCC identified additional problems at FNB Nevada in 2005,
2006, and 2007.

In an internal assessment, OCC acknowledged that it did not effectively supervise FNB
Arizona. While risks were identified, the internal assessment noted that follow-up to ensure
that bank management took corrective action was not as aggressive as it should have
been.

We recommended that OCC re-emphasize to examiners the need to ensure that banks take
swift corrective actions in response to examination findings. We also recommended that
OCC reiterate to examiners its policy that supervision workpapers are to be clear, concise,
and readily understood by other examiners and reviewers. OCC’s actions, both taken and
planned, were responsive to our recommendations. (OIG-09-033)

Private Collection Agencies: Diversified Collection Services, Inc., Needs to Improve
Compliance with FMS’s Debt Compromise Requirements

We found that Diversified was not   Diversified Collection Services, Inc. (Diversified), is a
following some private collection   private collection agency under contract to FMS. We
agency contract requirements and    found that Diversified was not following some private
FMS policy, including               collection agency contract requirements and FMS policy,
documentation provisions for debt   including documentation provisions for debt compromise.
compromise.                         To address these matters, we recommended that FMS
                                    take action to ensure that Diversified (1) conducts
additional training or takes other corrective action to ensure that its employees properly
document the steps taken prior to compromise, and (2) sends and retains copies of
compromise agreement letters in each case where a compromise is reached. FMS
concurred with our recommendations. (OIG-09-025)

General Management: Treasury Should Reactivate State-Held Federal Unclaimed
Assets Recovery Program (Corrective Action Verification on OIG-02-105)

Our office reviewed corrective actions taken by
Departmental Offices in response to our July 2002     We estimated that Treasury could
report on its state-held federal unclaimed assets     recover $10.5 million over the next
recovery program. Federal unclaimed assets are        3 years by reactivating the
federally owned monetary assets that include          program.
savings and checking accounts, money orders,
dividends, and royalties. This program became inactive in February 2005, following the
departure of a Treasury employee who worked part-time on the program. We estimated
that Treasury could recover $10.5 million over the next 3 years by reactivating the
program and therefore recommended that Treasury reactivate the program with appropriate
policies, procedures, and controls. Treasury management concurred and plans to complete
corrective action by September 30, 2009. (OIG-09-024)

                           (End of Significant Audits and Evaluations)


                 Treasury Office of Inspector General Semiannual Report—March 2009              17
                            S IGNIFICANT I NVESTIGATIONS

Engraver’s Proof on Online Web Site Found to Have Been Stolen From BEP

While conducting a routine check      While conducting a routine check of the eBay auction Web
of the eBay auction Web site, the     site, the BEP Office of Security observed an engraver’s
BEP Office of Security observed an    proof for foreign currency listed for auction. At our request,
engraver’s proof for foreign          the proof was removed from public auction pending further
currency listed for auction. At our   review and validation. In response to that notification, the
request, the proof was removed        consignor returned the note proof to BEP in August 2008.
from public auction pending
further review and validation.   In December 2008, BEP notified us of its official
                                 determination that the foreign currency proof was property
exclusive to the U.S. government that had been removed by illegal or unauthorized means
from BEP’s Washington, DC, facility. The investigation was unable to determine how or when
the proof was removed from BEP. The item was returned to BEP, and the investigation was
completed and closed.



The following are updates of significant investigative activity that occurred in prior semiannual
reporting periods.

Guilty Plea Entered by Treasury Employee on Narcotics Charges

As previously reported, a joint investigation by the Treasury OIG, Federal Bureau of
Investigation, and Fairfax County Police Drug Task Force resulted in arrests of Joseph McRae,
an OFAC senior compliance review officer, for purchasing illegal narcotics with the intent to
distribute them. On May 19, 2008, McRae had been arrested by law enforcement officers
from the Fairfax County Police Drug Task Force and charged locally with possession with
intent to distribute methamphetamine and gamma-hydroxybutyrate. On June 18, 2008,
McRae was arrested on federal charges pursuant to an arrest warrant issued in U.S. District
Court. In addition, the investigation led to the identification of additional suspects, including
another Treasury employee. Investigations involving the additional suspects are ongoing.

Update: On November 25, 2008, McRae filed a plea agreement in the U.S. District Court for
the Eastern District of Virginia to a criminal information charging him with possession with
intent to distribute methamphetamine. Prior to sentencing, McRae agreed to pay a mandatory
special assessment of $100 per count of conviction. Scheduling of the sentencing hearing is
pending.

Guilty Plea Entered in the District of Maryland

As previously reported, a joint investigation by the Treasury OIG, U.S. Secret Service, U.S.
Postal Service OIG, U.S. Postal Inspection Service, and Department of Transportation OIG
resulted in the June 25, 2008, 53-count indictment of 13 individuals in an alleged scheme to
steal Treasury checks from the mail and cash the checks using false identification documents.




                 Treasury Office of Inspector General Semiannual Report—March 2009                18
                         S IGNIFICANT I NVESTIGATIONS

Update: On various dates between August 2008 and January 2009, Defendants Maurice
Whitfield, Jamal Snead, Derrick Taylor, Theodore Terrell, Morris Pinkett, and Michael Hawkins
pled guilty to conspiracy to commit mail fraud, forged endorsement of a Treasury check, and
aggravated identity theft. According to the plea documents, the defendants were involved in a
scheme to take Treasury checks from the mail and, using fraudulent identification documents,
cash those checks at local check cashing establishments by posing as the check’s intended
recipient. As part of the scheme, these defendants cashed stolen Treasury checks intercepted
from the U.S. mail and used fake Maryland drivers licenses bearing their photographs and the
names and addresses of the checks’ intended recipients. In return, each co-conspirator
received a percentage of the money obtained by cashing the checks. During the course of the
scheme, the participants cashed over $100,000 in stolen Treasury checks. Scheduling of the
sentencing hearings is pending.

Florida Resident Sentenced for Submitting Fraudulent Claims to the Federal Emergency
Management Agency and Identity Theft

As previously reported, a joint Treasury OIG, Department of Homeland Security OIG, and
Social Security Administration OIG investigation resulted in the March 6, 2008, indictment of
Janelle Green, of West Palm Beach, Florida, by a federal grand jury in the Southern District of
Florida. According to the 34-count indictment, Green submitted fraudulent applications for aid
to the Federal Emergency Management Agency (FEMA) in the wake of several hurricane
disasters. It was determined that Green used several different personal identifiers, including
false social security numbers and multiple addresses, when submitting the fraudulent claims to
FEMA. The estimated loss was over $30,000 in federal assistance. Green entered a guilty plea
on September 11, 2008, to the charges.

Update: On December 12, 2008, Green appeared in the U.S. District Court for the Southern
District of Florida for sentencing. She was sentenced to 6 months time served for conversion
of government property and 24 months incarceration for the commission of aggravated
identity theft. Green was also sentenced to 3 years of supervised probation and ordered to
pay $5,698 in restitution to FEMA.

Treasury Employee Sentenced on Bribery Charges

As previously reported, a joint investigation by the Treasury OIG, the General Services
Administration OIG, and the Federal Bureau of Investigation resulted in the arrest and
conviction of Daniel Money, a former Treasury Facilities Management Division employee and
resident of Shady Side, Maryland, on one count of bribery. The investigation revealed that
Money, who owned and operated a private construction business in addition to his
employment with Treasury, agreed to provide bribe payments totaling $55,000 to a facilities
services officer of the U.S. Tax Court in exchange for the official’s awarding of two contracts
to Money’s company, Daniel Construction. Of the negotiated bribe, Money provided $1,800 in
two separate cash payments to the U.S. Tax Court official. Money entered into a plea
agreement with the United States Attorney’s Office and pled guilty to one count of bribery on
October 6, 2008. As part of the plea agreement, Money acknowledged that he converted to
his personal use approximately 600 gallons of diesel fuel that was Treasury property when he



               Treasury Office of Inspector General Semiannual Report—March 2009            19
                         S IGNIFICANT I NVESTIGATIONS

filled approximately 11 55-gallon drums on the back of his personally owned vehicle with
diesel fuel from a Treasury-contracted fuel truck, resulting in an estimated loss to Treasury of
approximately $2,250.

Update: On February 5, 2009, Money appeared in the U.S. District Court for the District of
Columbia for sentencing. He was sentenced to 30 months incarceration and 36 months
probation, ordered to pay a $100 special assessment fee and $2,250 in restitution, and fined
$7,500.

Two Treasury Employees Suspended for Misuse of Authority

As previously reported, an OIG investigation revealed that two TTB investigators exceeded
their authority while conducting a product integrity investigation. The investigators entered a
private winery without authorization, searched the establishment, removed documents from
the premises to photocopy at a different location, and then returned the documents to the
winery without notifying the winery owner of their actions.

Update: Both employees served a 14-day suspension, and one of the employees resigned and
accepted a position with another agency.

Guilty Plea Entered by Illinois Resident in Treasury Check Fraud Case

Our investigation revealed that Janise Collins, of Somonauk, Illinois, deposited and negotiated
an altered Treasury check in the amount of $129,600 at a bank in September 2005. Upon the
bank’s release of the funds, Collins wired $100,000 to a bank account in Hong Kong, China,
and made a cash withdrawal of $16,000. Collins was subsequently arrested by the Hinckley
Police Department, Illinois, related to another scheme to negotiate counterfeit commercial
checks. Collins was indicted by a grand jury in Kendall County, Illinois, on July 25, 2006, for
forgery of the Treasury check.

Update: On October 1, 2008, Collins entered a guilty plea in Kendall County Circuit Court,
Yorkville, Illinois, to one count of theft (Class 3 felony), related to her negotiation of this
fraudulent instrument. Following her conviction, Collins was conditionally discharged and
ordered to pay criminal monetary penalties in the amounts of $1,000 for restitution, $500 for
a court fine, and $250 for court costs.

West Virginia Resident Sentenced for Unlawful Receipt of Federal Benefit Payments

A joint investigation by the Treasury OIG and the Railroad Retirement Board OIG resulted in
the June 17, 2008, single-count indictment of Brenda Kay Newton by a federal grand jury in
the Southern District of West Virginia. According to the indictment, Newton, a resident of
Huntington, West Virginia, was charged with accepting and cashing Railroad Retirement Board
annuity checks after the death of her mother, Addie Mills, in 2000. Newton kept $59,246 in
benefits intended for her mother from 2000 to 2007. On September 15, 2008, Newton
entered a guilty plea to the charges.




                Treasury Office of Inspector General Semiannual Report—March 2009              20
                          S IGNIFICANT I NVESTIGATIONS

Update: On January 6, 2009, Newton appeared in the U.S. District Court for the Southern
District of West Virginia for sentencing. She was sentenced to 60 months probation and
ordered to pay a $100 assessment and $59,246 in restitution for the commission of theft of
public monies.

Louisiana Resident Sentenced for Unlawful Receipt of Federal Benefit Payments

A joint investigation by the Treasury OIG and the Defense Criminal Investigative Services
revealed that Rosalind Profit unlawfully received military benefits of a military annuitant,
commencing from the annuitant’s death in December 1995. In total, Treasury dispersed
approximately $89,000 in unlawful benefits. Profit admitted via affidavit to unlawfully
receiving the annuitant’s benefits, and as a result was indicted in the U.S. District Court for
the Middle District of Louisiana. On July 24, 2007, Profit pled guilty to one count of bank
fraud.

Update: On October 3, 2008, Profit was sentenced to 12 months and 1 day of incarceration,
to be followed by 5 years of supervised release. In addition, Profit was ordered to pay a $100
special assessment fee and $22,726 in restitution.

Misuse of Treasury Commuter Program Benefits

As previously reported, in response to various referrals from the GAO, Treasury OIG initiated
multiple investigations involving the potential misuse of public transportation subsidies by DO
employees. The investigations revealed that several of the identified Treasury employees
received excessive transportation subsidy benefits and misused them by selling them for profit
or giving them to friends and family members, in violation of the program policy. In addition,
the employees provided inaccurate information when applying to the program. The results of
the investigations were provided to DO management for administrative action. In April 2008,
DO reported that four employees received proposed 14-day suspensions and one employee
received a proposed removal from federal service.

Update: In October 2008, DO advised that the one employee previously proposed for removal
had resigned voluntarily.


                               (End of Significant Investigations)




                Treasury Office of Inspector General Semiannual Report—March 2009                 21
          O THER OIG A CCOMPLISHMENTS AND A CTIVITY

OIG Hosts Delegation from China

In October 2008, Inspector General Eric Thorson and OIG executives met with a delegation
from the Supervision Department, Ministry of Finance of China, to discuss the mission of
U.S. government inspectors general and Treasury OIG. The members of the delegation
were Mr. Youliang Zhang, Deputy Director-General Supervision; Mr. Lihai Xu, Deputy
Director-General, Finance, Department of Hebei Province; Mrs. Ruifang Li, Director, Finance
Department of Gansu Province; Mr. Jianmin Zhang, Commissioner Assistant; Mr.Jidong
Cui, Staff Member; and Mrs.Yanping Zhang, Staff Member.




                       Inspector General Thorson and visiting delegation
                             from the Ministry of Finance of China

Information Provided to Secretary Paulson and Secretary Geithner Related to
Backdated Capital Contributions by Certain Thrifts Regulated by OTS

During the period, we were requested by Secretary Paulson to review a backdated capital
infusion by IndyMac Bank, F.S.B. In a memorandum dated December 18, 2008, we
reported to the Secretary that the OTS Western Region Director approved a capital
contribution received by IndyMac from its holding company after March 31, 2008, to be
recorded as capital of the thrift as of March 31, 2008. We also reported that the impact of
the OTS official’s approval was that IndyMac was able to maintain its “well-capitalized”
status, and among other things, avoid the requirement in law to obtain a waiver from FDIC
to accept brokered deposits. We also informed the Secretary that during our inquiry, we
discovered that OTS had allowed other thrifts to record capital contributions in an earlier
period than received. Additionally, while there was some support in authoritative accounting
literature for recording capital contributions in one period that were received in a later
period, that support is limited. We advised that our review into the backdated capital
contributions by IndyMac and other thrifts was ongoing and that we would be issuing an



               Treasury Office of Inspector General Semiannual Report—March 2009               22
          O THER OIG A CCOMPLISHMENTS AND A CTIVITY

audit report on the matter. Within several days of our memorandum, OTS removed the
Western Region Director from that position. The individual later retired from federal service.

It subsequently came to light that a senior OTS official directed that another thrift backdate
a capital contribution. At the request of Secretary Geithner, we provided the details of this
case in a sensitive but unclassified memorandum dated March 17, 2009. The senior OTS
official was placed on administrative leave pending a further review into the matter.

We expect to complete our audit of OTS’s involvement in backdated capital contributions
by thrifts during the next semiannual reporting period.

Inquiry Into IRS Notice 2008-83

At the request of Senate Finance Committee Ranking Member Charles Grassley, we are
conducting an inquiry into the development and issuance of IRS Notice 2008-83. This
notice provides guidance on the application of section 382(h) of the Internal Revenue Code
to losses by banks. We will determine if the notice was appropriately developed and
issued, whether it appropriately interpreted the statute, whether there were conflicts of
interest in its development and application, and whether reports of its potential impact on
tax revenues have been overstated.

Treasury OIG Auditors and Investigators Attend Financial Institution Analysis and
Supervision Training Conference

Members of the Office of Audit and Office of Investigations attended a training conference
hosted at the FDIC’s Seidman Center in Arlington, Virginia from February 23 to 27, 2009.
Also participating in the training conference were the FDIC OIG, Federal Reserve Board
OIG, National Credit Union Administration OIG and the GAO. The training covered
regulatory oversight of banks by the federal banking regulators, the performance of
material loss reviews, and FDIC’s resolutions and receivership process. Susan Barron,
Audit Director, for Banking Audits, assisted in the planning of the training conference. Rich
Delmar, Counsel to the Inspector General, and Jeff Dye, Audit Manager for Banking Audits,
gave presentations during the conference. In light of the increasing number of bank failures
requiring material loss reviews, the training was both timely and very pertinent for the
participating OIGs.

OIG Audit Leadership Roles

The Federal Audit Executive Council (FAEC) consists of audit executives from the OIG
community and other federal audit organizations. Its purpose is to discuss and coordinate
issues affecting the federal audit community with special emphasis on audit policy and
operations of common interest to FAEC members. During the period, Treasury OIG
continued to actively support a number of FAEC initiatives.

•   Marla Freedman, Assistant Inspector General for Audit, serves on the executive board
    which coordinates the activities of FAEC’s working committees.



                Treasury Office of Inspector General Semiannual Report—March 2009                23
           O THER OIG A CCOMPLISHMENTS AND A CTIVITY


•   Joel Grover, Deputy Assistant Inspector General for Financial Management and
    Information Technology Audits, serves as co-chair of the FAEC Financial Statements
    Committee and is actively involved in developing and coordinating FAEC positions on a
    variety of accounting and auditing issues related to federal financial reporting. The
    committee also jointly sponsors with GAO an annual federal financial statement audit
    update conference. This year’s conference was held on March 24, 2009, and was
    attended by over 300 individuals from most federal agencies, the Office of
    Management and Budget, GAO, and independent public accounting firms.

•   Mr. Grover is also a member of the Government Performance and Accountability
    Committee of the American Institute of Certified Public Accountants. The mission of
    this Committee is to (1) promote greater government accountability and integrity of
    government operations, information and information systems; (2) promote and
    encourage increased participation and involvement by Certified Public Accountants
    (CPA) in government within the Institute; (3) enhance the professional image and value
    of CPAs in government; (4) provide advice and counsel to the Institute on the needs of
    CPAs in government, and (5) serve as a conduit for communications among CPAs in
    government, the Institute, and other professional organizations. Furthermore, Mr.
    Grover serves as a co-chair of the Maryland Association of Certified Public Accountants
    Members in Government Committee. Among other activities, the Committee sponsors
    an annual training conference on government/not-for-profit accounting and auditing
    issues.

•   Bob Taylor, Deputy Assistant Inspector General for Performance Audits, led a multi-
    agency effort to update the Council of the Inspectors General on Integrity and
    Efficiency guide for external peer reviews of federal audit organizations. External peer
    reviews are required every 3 years under Government Auditing Standards. In March
    2009, the Council’s Audit Committee approved the updated guide for issuance, and it
    now available on www.ignet.gov.

Fraud Alerts Issued Regarding Fraudulent Promissory Notes and Bonds Purported to
be Official Treasury Documents

In February 2009, we sent fraud alerts to the National Association of Attorneys General,
National Association of Secretaries of State, National Association for Court Management,
and Conference of State Court Administrators regarding use by individuals of fraudulent
promissory notes and bonds to purchase vehicles and real estate. The alert advised that
we had been made aware of numerous occurrences of such fraud throughout the United
States. We had previously sent fraud alerts to the National Automobile Dealers Association
in October 2008 and the National Association of Realtors in December 2008.

After sending these alerts, we received several additional leads from banks, automobile
dealerships, realtors, and private citizens that had seen or received fraudulent documents.
We assisted these callers with information and guidance regarding these documents to
prevent additional people and organizations from being victimized. We have also collected
approximately 3,000 fictitious instruments, including bonds, promissory notes, bills of


                Treasury Office of Inspector General Semiannual Report—March 2009              24
          O THER OIG A CCOMPLISHMENTS AND A CTIVITY

exchange, and tax forms, since January 2009, and we are creating a database of this
information for future criminal prosecutions.

Finally, we coordinated with the Department of Justice Fraud Section, Criminal Division,
the Department of Justice Tax Division, the Federal Bureau of Investigation, the Treasury
Inspector General for Tax Administration, the IRS Criminal Investigation Division, and the
U.S. Postal Inspection Service to initiate a nationwide investigation of the various parties
involved in the fraudulent activities.

                     (End of Other OIG Accomplishments and Activity)




                Treasury Office of Inspector General Semiannual Report—March 2009              25
                                  S TATISTICAL S UMMARY

Summary of OIG Activity
For the 6 Months Ended March 31, 2009


                                                                               Number or
     OIG Activity
                                                                              Dollar Value
                                         Office of Counsel Activity
     Regulation and legislation reviews                                                  1
     Instances where Information was refused                                             0
                                         Office of Audit Activities
     Reports issued (audits and evaluations)                                            40
     Disputed audit recommendations                                                      0
     Significant revised management decisions                                            0
     Management decision in which the IG disagrees                                       0
     Monetary benefits (audit)
         Questioned costs                                                        $588,784
         Funds put to better use                                              $10,500,000
         Revenue enhancements                                                 $11,088,784
         Total monetary benefits
                                    Office of Investigations Activities
     Allegations
         Total allegations received and processed                                     1,035
     Cases—investigations and inquiries (including joint investigations)
         Opened in the reporting period                                                 15
         Closed in the reporting period                                                 77
         Total cases in progress as of 3/31/2009                                        89
     Criminal and judicial actions (including joint investigations)
        Cases referred for prosecution and/or litigation                                 4
        Cases accepted for prosecution and/or litigation                                 1
        Arrests                                                                          1
        Indictments/informations                                                          0
        Convictions (by trial and plea)                                                   6
        Fines/restitution/recoveries (including joint investigations)               $98,919
     Administrative sanctions
         Total adverse personnel actions taken                                           9
     Oversight activities
         Prevention and detection briefings                                             35
         Quality assessment reviews                                                      0
         Management implication reports                                                  1




                Treasury Office of Inspector General Semiannual Report—March 2009             26
                               S TATISTICAL S UMMARY

Significant Unimplemented Recommendations
For Reports Issued Prior to April 1, 2008

 Number       Date   Report Title and Recommendation Summary

OIG-06-010    12/05 Bill and Coin Manufacturing: The Bureau of Engraving and Printing
                    Should Ensure That Its Currency Billing Rates Include All Costs and That
                    Excess Working Capital Is Deposited in the General Fund
                    BEP should ensure that currency billing rates consider the full cost of operations,
                    including imputed costs such as the imputed cost of employee benefits paid by
                    the Office of Personnel Management. To the extent that the currency rates result
                    in excess monies to the BEP revolving fund, they should be deposited as
                    miscellaneous receipts to the Treasury general fund. (1 recommendation)

                     Because this recommendation involves a policy issue with governmentwide
                     implications, the Department referred the matter to OMB. Resolution is pending.


OIG-06-030    5/06   Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to
                     Better Analyze Bank Secrecy Act Data but Challenges Remain
                     FinCEN should enhance the current FinCEN database system or acquire a new
                     system. An improved system should provide for complete and accurate
                     information on the case type, status, resources, and time expended in
                     performing the analysis. This system should also have the proper security
                     controls to maintain integrity of the data. (1 recommendation)


OIG-07-048    9/07   Foreign Assets Control: Actions Have Been Taken to Better Ensure
                     Financial Institution Compliance With OFAC Sanction Programs, But Their
                     Effectiveness Cannot Yet Be Determined
                     The OFAC Director should determine whether MOUs should be established with
                     self-regulatory organizations and IRS for sharing information on financial
                     institutions for which they have OFAC oversight responsibility.
                     (1 recommendation)


OIG-08-008    11/07 Management Letter for Fiscal Year 2007 Audit of the Federal Financing Bank’s
                    Financial Statements
                    The Federal Financing Bank should do the following: (1) Continue its efforts in
                    developing a system development methodology and a configuration management
                    plan. The system development methodology should describe programming
                    naming conventions, the system development phases and what is to be
                    performed in each, procedures for handling emergency programming changes,
                    application test procedures, and development, test and production of access
                    control lists, etc., as documented in NIST SP 800-64. (2) Follow through with its
                    plan to upgrade the LMCS Database Management System to a supported version
                    of Oracle. (3) Configure LMCS to require users to use at least eight-character
                    passwords as required by LMCS. (3 recommendations.)


OIG-08-013    12/07 Management Report for Fiscal Year 2007 Audit of the Financial Management



               Treasury Office of Inspector General Semiannual Report—March 2009                    27
                                S TATISTICAL S UMMARY

                      Service's Schedule of Non-Entity Governmentwide Cash
                      Due to the sensitive nature of the information contained in the finding, the
                      recommendation was provided in a separate sensitive but unclassified
                      management report (OIG-08-013) dated November 8, 2007. (1 recommendation)


OIG-08-018     12/07 Management Letter for the Fiscal Year 2007 Audit of the United States Mint's
                     Financial Statements
                     Mint management should (1) establish a policy and procedure related to partial
                     shipping and receipting of inventory between Mint facilities, including the
                     certification of the inventory weights, and (2) establish and implement policies
                     and procedures for the retirement of assets to ensure that Excess Property forms
                     are properly completed, filed, and available for examination for a reasonable time
                     period after the retirement transaction. (2 recommendations.)


OIG-08-025     12/07 Information Technology: Network Security at Financial Crimes Network Needs
                     Improvement
                     Due to the sensitive nature of the findings and recommendations, this report was
                     issued as sensitive but unclassified. One recommendation remains
                     unimplemented.


This list of OIG audit reports with unimplemented recommendations is based on information in
Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials. We also considered the results of the most recent financial audits,
which include follow-up on matters reported in prior financial audits.



Summary of Instances Where Information Was Refused
October 1, 2008, through March 31, 2009

There were no such instances during this period.



Listing of Audit and Evaluation Reports Issued
October 1, 2008, through March 31, 2009

Financial Audits and Attestation Engagements

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt's Trust Fund Management Branch for the Period August 1, 2007 to July 31, 2008,
OIG-09-001, 10/09/08

Audit of the United States Mint's Schedule of Custodial Deep Storage Gold and Silver Reserves as of
September 30, 2008 and 2007, OIG-09-002, 10/21/08

Audit of the Bureau of Engraving and Printing's Fiscal Years 2008 and 2007 Financial Statements,
OIG-09-003, 11/03/08



                 Treasury Office of Inspector General Semiannual Report—March 2009                    28
                                S TATISTICAL S UMMARY


Financial Management: Report on the Bureau of the Public Debt Trust Fund Management Branch
Schedules for Selected Trust Funds as of and for the Year Ended September 30, 2008, OIG-09-004,
11/07/08

Audit of the Federal Financing Bank's Fiscal Years 2008 and 2007 Financial Statements, OIG-09-005,
11/12/08

Audit of the Department of the Treasury's Fiscal Years 2008 and 2007 Financial Statements,
OIG-09-006, 11/17/08

Audit of the Community Development Financial Institutions Fund's Fiscal Year 2008 Statement of
Financial Position, OIG-09-007, 11/17/08

Management Letter for Fiscal Year 2008 Audit of the Community Development Financial Institutions
Fund's Statement of Financial Position, OIG-09-008,11/18/08

Audit of the Department of the Treasury's Special-Purpose Financial Statements for Fiscal Years 2008
and 2007, OIG-09-009, 11/19/08

Audit of the Financial Management Service's Fiscal Years 2008 and 2007 Schedules of Non-Entity
Government-Wide Cash, OIG-09-010, 11/19/08

Management Letter for Fiscal Year 2008 Audit of the Federal Financial Bank's Financial Statements,
OIG-09-011, 11/21/08

Audit of the Financial Management Service's Fiscal Years 2008 and 2007 Schedules of Non-Entity
Assets, Non-Entity Costs and Custodial Revenue, OIG-09-012, 11/24/08

Audit of the United States Mint's Fiscal Years 2008 and 2007 Financial Statements, OIG-09-015,
12/8/08

Management Letter for Fiscal Year 2008 Audit of the United States Mint's Financial Statements,
OIG-09-016, 12/8/08

Management Letter for Fiscal Year 2008 Audit of the Financial Management Service's Schedule of Non-
Entity Government-wide Cash, OIG-09-017, 12/18/08

Management Letter for Fiscal Year 2008 Audit of the Financial Management Service's Schedule of Non-
Entity Assets, Non-Entity Costs and Custodial Revenue, OIG-09-018, 12/18/08, $126,811 Q

Audit of the Office of Thrift Supervision's Fiscal Years 2008 and 2007 Financial Statements,
OIG-09-019, 12/18/08

Management Letter for Fiscal Year 2008 Audit of the Office of Thrift Supervision's Financial
Statements, OIG-09-020, 12/18/08

Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years 2008 and 2007 Financial
Statements, OIG-09-021, 12/22/08

Management Letter for Fiscal Year 2008 Audit of the Department of the Treasury Forfeiture Fund's
Financial Statements, OIG-09-022, 12/22/08



                 Treasury Office of Inspector General Semiannual Report—March 2009                   29
                                S TATISTICAL S UMMARY


Audit of the Financial Crimes Enforcement Network's Fiscal Years 2008 and 2007 Financial Statements,
OIG-09-023, 1/6/09

Audit of the Office of the Comptroller of the Currency's Fiscal Years 2008 and 2007 Financial
Statements, OIG-09-026, 1/8/09

Management Letter for Fiscal Year 2008 Audit of the Office of the Comptroller of the Currency's
Financial Statements, OIG-09-027, 1/8/09

Management Letter for the Fiscal Year 2008 Audit of the Department of the Treasury's Financial
Statements, OIG-09-028, 1/8/09

Audit of the Office of D.C. Pensions' Fiscal Years 2008 and 2007 Financial Statements, OIG-09-029,
1/12/09

Audit of the Exchange Stabilization Fund's Fiscal Years 2008 and 2007 Financial Statements,
OIG-09-034, 3/11/09

Management Letter for Fiscal Year 2008 Audit of the Exchange Stabilization Fund's Financial
Statements, OIG-09-035, 3/11/09

Information Technology Audits and Evaluations

Information Technology: United States Department of the Treasury's Compliance With Section 522 of
the Consolidated Appropriations Act of 2005, OIG-09-014, 12/3/08

Information Technology: Network Security at the Alcohol and Tobacco Tax and Trade Bureau Could Be
Improved, OIG-CA-09-005, 12/18/08

Information Technology: Treasury’s Federal Desktop Core Configuration Deviation Tracking Process Is
Inadequate, OIG-CA-09-007, 2/19/09

Performance Audits

Safety and Soundness: Material Loss Review of ANB Financial, National Association, OIG-09-013,
11/25/08

General Management: Treasury Should Reactivate State-Held Federal Unclaimed Assets Recovery
Program (Corrective Action Verification on OIG-02-105), OIG-09-024, 1/7/09 $10,500,000 R

Private Collection Agencies: Diversified Collection Services, Inc., Needs to Improve Compliance with
FMS's Debt Compromise Requirements, OIG-09-025, 1/8/09

Safety and Soundness: Material Loss Review of IndyMac Bank, FSB, OIG-09-032, 2/26/09

Safety and Soundness: Material Loss Review of First National Bank of Nevada and First Heritage Bank,
National Association, OIG-09-033, 2/27/09




                 Treasury Office of Inspector General Semiannual Report—March 2009                     30
                                          S TATISTICAL S UMMARY

Supervised Contract Audits

Contract Audit: VSE Corporation's Incurred and Billed Costs Through September 30, 2007 under
Contract TOS-06-052 (SBU), OIG-09-030, 1/29/09, $426,331 Q

Contract Audit: VSE Corporation’s Certified Indirect Cost Rate Proposal for Fiscal Year 2006 under
Contract TOS-06-052 (SBU), OIG-09-031, 2/12/09, $35,642, Q

Other

Memorandum for Secretary Paulson, Management and Performance Challenges Facing the Department
of the Treasury, OIG-CA-09-001, 10/30/08

Memorandum for Secretary Paulson, Information Requested Relating to a Capital Infusion to IndyMac
Bank, F.S.B, OIG-CA-09-004, 12/18/08

Memorandum for Secretary Geithner, Information Requested Regarding the Office of Thrift Supervision
(SBU), OIG-CA-09-008, 3/17/09



Audit Reports Issued with Questioned Costs
October 1, 2008, through March 31, 2009

                                                                  Total
                      Category                       No. of      Questioned   Unsupported
                                                     Reports      Costs a/      Costs a/
For which no management decision had been made
by beginning of reporting period                           0         0           0

Which were issued during the reporting period              3      588,784        0
Subtotals                                                 3 b/    588,784        0
For which a management decision was made during
                                                           1      126,811        0
the reporting period
    dollar value of disallowed costs                       1      126,811        0
   dollar value of costs not disallowed                    0         0           0
For which no management decision has been made
by the end of the reporting period                         2      461,973        0

For which no management decision was made within
six months of issuance                                     0         0           0

a/ “Questioned costs” include “unsupported costs.”
b/ Two audits were performed by DCAA and one by an IPA.




                     Treasury Office of Inspector General Semiannual Report—March 2009               31
                                          S TATISTICAL S UMMARY

Audit Reports Issued With Recommendations That Funds Be Put to Better Use
October 1, 2008, through March 31, 2009


                                                                                                          Revenue
                         Category                         No. of Reports       Total        Savings
                                                                                                          Enhancement
For which no management decision has been made by                      0               0              0               0
the beginning of the reporting period
Which were issued during the reporting period                          1               1              0    10,500,000
Subtotals                                                              1               1              0    10,500,000
For which a management decision was made during the
                                                                       1               1              0    10,500,000
reporting period
   dollar value of recommendations agreed to by
                                                                       1               1              0    10,500,000
   management
   based on proposed management action                                 1               1              0    10,500,000
   based on proposed legislative action                                0               0              0               0
   dollar value of recommendations not agreed to by
                                                                       0               0              0               0
   management
For which no management decision has been made by                      0               0              0               0
the end of the reporting period
For which no management decision was made within
                                                                       0               0              0               0
six months of issuance
A recommendation that funds be put to better use denotes funds could be used more efficiently if management took actions
to implement and complete the recommendation including (1) reduction in outlays, (2) de-obligations of funds from programs
or operations, (3) costs not incurred by implementing recommending improvements related to operations, (4) avoidance of
unnecessary expenditures noted in pre-award review of contract agreements, (5) any other savings which are specifically
identified, or (6) enhancements to revenues.




Previously Issued Audit Reports Pending Management Decisions (Over 6 Months)
as of March 31, 2009

There were no audit reports issued before this semiannual reporting period that are pending a
management decision.



Significant Revised Management Decisions
October 1, 2008, through March 31, 2009

There were no significant revised management decisions during the period.




                     Treasury Office of Inspector General Semiannual Report—March 2009                                       32
                            S TATISTICAL S UMMARY

Significant Disagreed Management Decisions
October 1, 2008, through March 31, 2009

There were no management decisions this period with which the Inspector General was in
disagreement.




              Treasury Office of Inspector General Semiannual Report—March 2009          33
          R EFERENCES T O T HE I NSPECTOR G ENERAL A CT




                                                  Requirement                             Page
Section 4(a)(2)      Review of legislation and regulations                                 26
Section 5(a)(1)      Significant problems, abuses, and deficiencies                       8-21
Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    8-21
                     deficiencies
Section 5(a)(3)      Significant unimplemented recommendations described in previous      27-28
                     semi-annual reports
Section   5(a)(4)    Matters referred to prosecutive authorities                           26
Section   5(a)(5)    Summary of instances where information was refused                    28
Section   5(a)(6)    List of audit reports                                                28-31
Section   5(a)(7)    Summary of significant reports                                       8-21
Section   5(a)(8)    Audit Reports with questioned costs                                   31
Section   5(a)(9)    Recommendations that funds be put to better use                       32
Section   5(a)(10)   Summary of audit reports issued before the beginning of the           32
                     reporting period for which no management decision has been made
Section 5(a)(11)     Significant revised management decisions made during the reporting    32
                     period
Section 5(a)(12)     Management decisions with which the Inspector General is in           33
                     disagreement
Section 5(a)(13)     Instances of unresolved FFMIA non-compliance                         10
Section 5(d)         Serious or flagrant problems, abuses or deficiencies                 N/A
Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                     refused




             Treasury Office of Inspector General Semiannual Report—March 2009                    34
                            A BBREVIATIONS

BEP            Bureau of Engraving and Printing
BPD            Bureau of the Public Debt
BSA            Bank Secrecy Act
CFO Act        Chief Financial Officers Act of 1990
CPA            Certified Public Accountant
DO             Departmental Offices
EESA           Emergency Economic Stabilization Act
ESF            Exchange Stabilization Fund
FAEC           Federal Audit Executive Council
FDCC           Federal Desktop Core Configuration
FDIA           Federal Deposit Insurance Act
FDIC           Federal Deposit Insurance Corporation
FDICIA         Federal Deposit Insurance Corporation Improvement Act
FEMA           Federal Emergency Management Agency
FinCEN         Financial Crimes Enforcement Network
FISMA          Federal Information Security Management Act of 2002
FMS            Financial Management Service
GAO            Government Accountability Office
GMRA           Government Management Reform Act of 1994
IRS            Internal Revenue Service
IPA            Independent Public Accountant
IT             information technology
MLR            material loss review
MOU            memoranda of understanding
OIG            Office of Inspector General
OCC            Office of the Comptroller of the Currency
OFAC           Office of Foreign Assets Control
OMB            Office of Management and Budget
OTS            Office of Thrift Supervision
PCA            Prompt Corrective Action
TFI            Office of Terrorism and Financial Intelligence
TIER           Treasury Information Executive Repository
TIGTA          Treasury Inspector General for Tax Administration
TTB            Alcohol and Tobacco Tax and Trade Bureau




          Treasury Office of Inspector General Semiannual Report—March 2009   35
This Page Intentionally Left Blank
Facts About Dollar Bills
Many of the basic face and back design features of United States paper currency were adopted in 1928.

Faceplate Numbers and Letters are the small numbers and letters that can be found in the lower right and upper left
corners of a bill. In the left corner is the Note Position Number. This consists of the Note Position Letter and a
quadrant number. The combination indicates the position of the note on the plate from which it was printed. In the
lower right corner, the Note Position Letter is followed by the Plate Serial Number. This identifies the plate from which
the note was printed. The Plate Serial Number for the reverse (back) side of the note is in the lower-right corner, just
inside the ornamental border on the reverse of the bill.




A popular and often asked question about design is the one that appears on the back of the $1 note, the Great Seal
of the United States. The front of the seal shows an American bald eagle behind our national shield. The eagle holds
an olive branch, which symbolizes peace, with 13 berries and 13 leaves. In the left talon, the eagle holds 13 arrows,
which represents war. The 13 leaves represent the original colonies. The eagle's head is turned toward the olive
branch, showing a desire for peace. The top of the shield represents the Congress, the head of the eagle the
Executive branch, and the nine tail feathers the Judiciary branch of our government. The 13-letter motto, "E Pluribus
Unum," on the ribbon held in the eagle's beak means "Out of Many, One."

On the reverse of the seal is a pyramid with 1776 in Roman numerals at the base. The pyramid stands for
permanence and strength. The pyramid is unfinished, signifying the United States' future growth and goal of
perfection. A sunburst and an eye are above the pyramid, representing the overseeing eye of a deity. The 13-letter
motto, "Annuit Coeptis" means "He has favored our undertakings." Below the pyramid the motto, "Novus Ordo
Seclorum" means "A new order of the ages," standing for the new American era.

The motto "In God We Trust" first appeared on U.S. coins in 1864. However, it was not until 1955 that a law was
passed which stated that thereafter all new designs for coins and currency would bear that inscription.

Source: Bureau of Engraving and Printing Website
 

     
         
     
            contact us
                                               



    Headquarters
    Office of Inspector General
    1500 Pennsylvania Avenue, N.W.,
    Room 4436
    Washington, D.C. 20220
    Phone: (202) 622-1090;
    Fax: (202) 622-2151

    Office of Audit
    740 15th Street, N.W., Suite 600
    Washington, D.C. 20220
    Phone: (202) 927-5400;
    Fax: (202) 927-5379

    Office of Investigations
    740 15th Street, N.W., Suite 500
    Washington, D.C. 20220
    Phone: (202) 927-5260;
    Fax: (202) 927-5421


    Office of Counsel
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220
    Phone: (202) 927-0650;
    Fax: (202) 927-5418

    Office of Management
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220
                                       Treasury OIG Hotline
                                       Call Toll Free: 1.800.359.3898
    Phone: (202) 927-5200;
    Fax: (202) 927-6492

    Eastern Field Audit Office
                                       Treasury OIG Web Page
    408 Atlantic Avenue, Room 330
    Boston, Massachusetts 02110-3350
    Phone: (617) 223-8640;             OIG reports and other information are now
    Fax (617) 223-8651                 available via the Internet. The address is
                                       http://www.treas.gov/inspector-general
